      United States Department of Agriculture




Office of Inspector General
Agreed-Upon Procedures: Employee
Benefits, Withholdings, Contributions,
and Supplemental Semiannual
Headcount Reporting Submitted to OPM




                                       11401-0008-11
                                       September 2014
                                         Agreed-Upon Procedures: Employee Benefits, 
                                        Withholdings, Contributions, and Supplemental 
                                      Semiannual Headcount Reporting Submitted to OPM 
                                                                         
                                                          Report 11401-0008-11 
What Were OIG’s

Objectives

To perform procedures to
assist OPM in (1) assessing
the reasonableness of
retirement, health benefits, and   OIG performed agreed-upon procedures for 
life insurance withholdings        assessing information reported by USDA’s 
and contributions, as well as
enrollment information             National Finance Center. 
submitted via the
Supplemental Semiannual            What OIG Found
Headcount Report, and
(2) identifying errors relating    The Department of Agriculture’s National Finance Center (NFC)
to processing and distributing     reports Federal employee benefits, and enrollment information, to the
CFC payroll deductions.            Office of Personnel Management (OPM). Reported information
                                   includes headcounts, as well as withholdings and contributions for
What OIG Reviewed                  retirement, health benefits, and life insurance. Additionally, NFC
                                   withholds employees’ Combined Federal Campaign (CFC)
We performed agreed-upon           contributions and distributes them to Principal Combined Fund
audit procedures as required       Organizations (PCFO). In applying agreed-upon audit procedures, we
on Federal employee benefits,      identified differences through calculations, analyses, and
enrollment information, and        comparisons. For instance, we again identified headcounts for
CFC payroll deductions, as of      military deposits and for salary offsets that often differed from NFC’s
August 31, 2014. Our review        by more than 2 percent, as did some headcounts relating to health, life
included information               insurance, and/or retirement benefits. In general, NFC stated that
submitted for the Departments      further analyses will be performed to address any issues that the
of Agriculture, Commerce,          programming changes from last year were not designed to address.
Homeland Security, Housing
and Urban Development,             Additionally, we identified CFC deductions for employees at duty
Justice, Labor, and the            stations with no CFC, or attributed to the wrong CFC, sometimes
Treasury, as well as the           because an incorrect CFC pledge form was used. We also noted some
Agency for International           instances where PCFO names and addresses in NFC’s system differed
Development and the Small          from those deemed correct by OPM. Generally, NFC attributed most
Business Administration.           CFC differences to manual processes and human error. NFC noted a
                                   low error rate overall, and that it was responsible for very few of these
What OIG Recommends                differences.
We do not make any
                                   Our sample document review disclosed five errors for benefits entered
recommendations in this
                                   into the system by entity staff. Furthermore, we were unable to verify
report.
                                   entries for 85 personnel documents we tested because entities’
                                   personnel officers were unable to locate the documents. However, to
                                   ensure that information from the system was accurate, we performed
                                   any applicable calculations for salary, retirement, and life and health
                                   insurance. We noted no exceptions.
                          United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250

September 25, 2014

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Office of Inspector General
Theodore Roosevelt Federal Building
1900 E Street, NW., Room 6400
Washington, D.C. 20415-0001

SUBJECT:       Agreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and
               Supplemental Semiannual Headcount Reporting Submitted to the Office of
               Personnel Management

Dear Mr. McFarland:

This report presents the results of the Agreed-Upon Procedures performed on the subject
information processed by the Department of Agriculture’s Office of the Chief Financial
Officer/National Finance Center as of August 31, 2014.

Our review included information for the following entities, listed in Appendix A of the Office of
Management and Budget (OMB) Bulletin 14-02, Audit Requirements for Federal Financial
Statements, dated October 21, 2013: Department of Agriculture, Department of Commerce,
Department of Homeland Security, Department of Housing and Urban Development,
Department of Justice, Department of Labor, Department of the Treasury, Agency for
International Development, and Small Business Administration.

This review was performed as required by OMB and in accordance with applicable generally
accepted government auditing standards and the Statements of Standards for Attestation
Engagements, established by the American Institute of Certified Public Accountants.

If you have questions, please contact me at (202) 720-6945, or have a member of your staff
contact Ernest M. Hayashi, Director, Farm, Trade, Research, and Environment Division, at
(202) 720-2887.

Sincerely,




Gil H. Harden
Assistant Inspector General for Audit

cc:
Dennis D. Coleman, Chief Financial Officer, Office of Personnel Management
Table of Contents

Independent Auditors’ Report................................................................................1
Abbreviations ...........................................................................................................3
Exhibit A: Procedures Performed and Results .....................................................4
Exhibit B: Combined Federal Campaign (CFC) Deductions for Employees
With No Local CFC Campaign ............................................................................19
Exhibit C: Name, Principal Combined Fund Organization (PCFO), and
Address Differences ...............................................................................................21
Exhibit D: Accounting Code Differences .............................................................23
Exhibit E: Incorrect Combined Federal Campaign (CFC) Pledge Forms ......42
Exhibit F: Statistical Plan Sampling Methodology.............................................43
Independent Auditors’ Report 

To:     Honorable Patrick E. McFarland
        Inspector General
        U.S. Office of Personnel Management


We have performed the procedures described in Exhibit A, which were agreed to by the
Inspector General and Chief Financial Officer of the Office of Personnel Management (OPM),
solely to assist OPM with respect to the employee withholdings and employer contributions
reported by the Department of Agriculture’s Office of the Chief Financial Officer/National
Finance Center (NFC) on the Standard Form 2812, Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement, and OPM 1523, Supplemental Semiannual
Headcount Report,1 as of August 31, 2014. The reports submitted by NFC included information
for the following entities listed in Appendix A of the Office of Management and Budget (OMB)
Bulletin 14-02, Audit Requirements for Federal Financial Statements: Department of
Agriculture, Department of Commerce, Department of Homeland Security, Department of
Housing and Urban Development, Department of Justice, Department of Labor, Department of
the Treasury, Agency for International Development, and Small Business Administration.
Furthermore, we performed agreed-upon procedures to assist OPM with identifying errors
relating to processing and distributing Combined Federal Campaign payroll deductions.

The engagement to apply the Agreed-Upon Procedures was performed in accordance with
applicable generally accepted government auditing standards and the statement of standards for
attestation engagements established by the American Institute of Certified Public Accountants.
The sufficiency of the procedures is solely the responsibility of the Inspector General and the
Chief Financial Officer of OPM. Consequently, we make no representation regarding the
sufficiency of the procedures described either for the purpose for which this report has been
requested or for any other purpose. The results of the engagement are detailed in Exhibits A
through E.

We are not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for health benefits, life insurance,
and retirement; the Combined Federal Campaign; and the headcount reports prepared by NFC.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.




1
  We selected our samples from Pay Period (PP) 16 (August 11, 2013, through August 24, 2013, paid September 5,
2013), PP 26 (December 29, 2013, through January 11, 2014, paid January 23, 2014), and PP 3 (February 9, 2014,
through February 22, 2014, paid March 6, 2014). PPs 16 and 3 coincided with the OPM 1523, Supplemental
Semiannual Headcount Report.

                                                                              REPORT 11401-0008-11           1
This report is intended solely for the use of the Inspector General and Chief Financial Officer of
OPM and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes.




Gil H. Harden
Assistant Inspector General for Audit

September 8, 2014




2    REPORT 11401-0008-11
Abbreviations

CFC ............................. Combined Federal Campaign
CRP ............................. Central Receipt Point
CSRS ........................... Civil Service Retirement System
FEGLI ......................... Federal Employees’ Group Life Insurance
FEHB .......................... Federal Employees Health Benefits
FERS ........................... Federal Employees’ Retirement System
FERS-FRAE ............... Federal Employees’ Further Revised Annuity Employees System
FERS-RAE .................. Federal Employees Revised Annuity Employees System
HUD ............................ Department of Housing and Urban Development
NFC ............................. National Finance Center
OCFO .......................... Office of the Chief Financial Officer
OCFCO ....................... Office of CFC Operations
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPF ............................. Official Personnel File
OPM ............................ Office of Personnel Management
PP ................................ Pay Period
RITS ............................ Retirement and Insurance Transfer System
SF ................................ Standard Form
TMGT ......................... Table Management
USDA.......................... Department of Agriculture




                                                                             REPORT 11401-0008-11   3
Exhibit A: Procedures Performed and Results
                                                                              Exhibit A – Page 1 of 15

    1. Compare the Retirement and Insurance Transfer System (RITS) submission data to the
       payroll information by performing the following procedures (note: for cross-servicing
       agencies, if the internal controls are the same for all agencies serviced, it is only
       necessary to perform this procedure for one agency):

       a. Recalculate the mathematical accuracy of the payroll information.

       b. Recalculate the mathematical accuracy of each RITS submission for the payroll
          information selected in step 1.a.

       c. Compare the employee withholding information at the aggregate level for retirement,
          health benefits, and life insurance (as adjusted for reconciling items) shown on the
          payroll information obtained in step 1.a. to the related amounts shown on the RITS
          submission for the corresponding period.

       Report any differences for each of the retirement, health benefits, and life insurance
       (categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
       of the three categories. Obtain a management official name, an explanation, telephone
       number, and an email address for the differences above the 1 percent threshold.

       Results

       There were no differences over 1 percent.

    2. See substeps below.

       a. Randomly select a total of 25 individuals (from each Department) who were in the
          payroll system for all three of the RITS submissions selected above that meet all of
          the following criteria. In addition, (1) randomly select five individuals (from each
          Department) who are under Federal Employees Revised Annuity Employees System
          (FERS-RAE) to test that their FERS-RAE contribution rate was calculated correctly
          and (2) randomly select five individuals (from each Department) who are under
          Further Revised Annuity Employees System (FERS-FRAE) to test that their FERS-
          FRAE contribution rate was calculated correctly:

            ·    Covered by the Civil Service Retirement System (CSRS) or the Federal
                 Employees’ Retirement System (FERS);
            ·    enrolled in the Federal Employees Health Benefits (FEHB) Program;
            ·    covered by Basic Life Insurance; and
           ·     covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
                 optional coverage (Option A, B, or C).


4    REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                             Exhibit A – Page 2 of 15

    Results

    FERS-FRAE withholdings were not tested during this review because the Office of the
    Chief Financial Officer/National Finance Center (NFC) did not implement the required
    changes in retirement plan codes and rates until after the selected Pay Periods (PP) of
    review. NFC stated that it implemented the FERS-FRAE changes for the new codes/rates
    in PP 8, 2014. All agencies that NFC provides payroll services to could potentially be
    affected by this Governmentwide change.

    b. Obtain the following documents, either in electronic or hard copy format, from the
       Official Personnel File (OPF) for each individual selected in step 2.a. Hard copies
       can be originals or certified copies.

       ·      All Notifications of Personnel Actions Standard Form-50 (SF) covering PP in the
              RITS submissions chosen;

       ·      the Health Benefits Election Form (SF-2809) covering the PPs in the RITS
              submissions chosen or, if applicable, obtain a report (via the agency personnel
              office) from the agency’s automated system that allows participants to change
              benefits, (e.g., Employee Express), for any health benefits transactions in that
              system for the individuals selected in step 2.a. (Note: a new SF-2809 is needed
              only if an employee is changing health benefit plans; therefore, the form could be
              many years old); and

       ·      for health benefits, compare the date of transaction with the date on the certified
              copy of the SF-2809 or the agency’s automated system report obtained above to
              identify whether the health benefit information to be used in step 2.f. covers the
              PPs in the RITS submissions chosen.
       ·      the Life Insurance Election Form (SF-2817) covering the PPs in the RITS
              submission chosen. (Note: a new SF-2817 is needed only if an employee is
              changing life insurance coverage; therefore, the form could be many years old).
    Results

    Personnel officers were not able to locate 79 requested personnel documents for the
    9 entities reviewed; however, we performed the calculations for salary, retirement, and
    life and health insurance in these cases to ensure that the information from the NFC
    system was accurate. The following table lists the number of missing forms from each
    entity.




                                                                    REPORT 11401-0008-11          5
Exhibit A: Procedures Performed and Results
                                                                         Exhibit A – Page 3 of 15


                            Entity                            SF-50       FEHB         FEGLI
      Department of Agriculture                                 1           4             2
      Agency for International Development                     25           9            13
      Department of Commerce                                    0           2             1
      Department of Justice                                     0           0             1
      Department of Labor                                       3           1             1
      Department of Homeland Security                           0           2             4
      Department of Housing and Urban Development               0           2             3
      Small Business Administration                             0           3             1
      Department of the Treasury                                0           0             1
                            Totals                             29          23            27


     c. For each individual selected in step 2.a., compare the base salary used for payroll
        purposes and upon which withholdings and contributions generally are based to the
        base salary reflected on the employee’s SF-50. Report any differences resulting from
        this step and obtain management’s explanation for the differences.

     Results

     No exceptions were noted.

     d. For Retirement for each individual selected in step 2.a., compare the retirement plan
        code from the employee’s SF-50 to the plan code used in the payroll system. Report
        any differences resulting from this step and obtain management’s explanation for the
        differences.

     Results

     No exceptions were noted.

     e. For each individual selected in step 2.a., calculate the retirement amount to be
        withheld and contributed for the plan code from the employee’s SF-50, by
        multiplying the base salary from the employee’s SF-50 by the official withholding
        and contribution rates required by law. Compare the calculated amounts to the actual
        amounts withheld and contributed for the retirement plan. Report any differences
        resulting from this step and obtain management’s explanation for the differences.




6   REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                           Exhibit A – Page 4 of 15

    Results

    No exceptions were noted.

    f. For health benefits for each individual selected in step 2.a., compare the employee
       withholdings and agency contributions to the official subscription rates issued by
       OPM for the plan and option elected by the employee, as documented by an SF-2809
       in the employee’s OPF or automated system that allows the participant to change
       benefits (e.g., Employee Express). Report any differences resulting from this step
       and obtain management’s explanation for the differences. The health benefits rates
       can be found on OPM’s website at http://www.opm.gov/insure/health/rates/index.asp.

    Results

    No exceptions were noted.

    g. For life insurance for each individual selected in step 2.a., confirm that Basic Life
       Insurance was elected by the employee by inspecting the SF-2817 documented in the
       employee’s OPF. Report any differences resulting from this step and obtain
       management’s explanation for the differences.

    Results

    No exceptions were noted.

    h. For each individual selected in step 2.a., calculate the withholding and contribution
       amounts for Basic Life Insurance using the following:

       ·      For employee withholdings: round the employee’s annual base salary up to the
              nearest thousand dollars and add $2,000. Divide this total by 1,000 and multiply
              by the rate required by law. The life insurance rates are on OPM’s website at
              http://www.opm.gov/insure/life/rates/index.asp.

       ·      For agency contributions: divide the employee withholdings calculated above by
              two.

              Compare the calculated employee withholdings and agency contributions to the
              actual amounts withheld and contributed for the Basic Life Insurance. Report any
              differences resulting from this step and obtain management’s explanation for the
              differences.




                                                                 REPORT 11401-0008-11           7
Exhibit A: Procedures Performed and Results
                                                                               Exhibit A – Page 5 of 15

     Results

     No exceptions were noted.

     i. Also, for life insurance for each individual selected in step 2.a., compare optional
        coverage elected as documented on the SF-2817 in the employee’s OPF to the
        optional coverage documented in the payroll system. Report any differences resulting
        from this step and obtain management’s explanation for the differences.

     Results

     We found four FEGLI codes in the payroll system that did not match the optional
     coverage elected on the SF-2817 – two from the Agency for International Development
     and one each from the Department of Agriculture and the Department of Justice. All four
     errors were confirmed by agency personnel. Agency personnel at the Department of
     Agriculture and the Department of Justice confirmed the errors had been corrected.
     Additionally, agency personnel at the Agency for International Development confirmed
     their plan to correct the errors.

     j. For each individual selected in step 2.a., calculate the withholding amounts for
        optional life insurance using the following:

        ·      For Option A: locate the employee’s age group using the age groups provided for
               Option A in the FEGLI Program Booklet. The withholding amount to be used is
               the rate listed in the FEGLI Program Booklet for that age group. Compare the
               calculated amount to the amount withheld for Option A Life Insurance. Report
               any differences resulting from this step and obtain management’s explanation for
               the differences.

     Results

     No exceptions were noted, other than the four errors noted in 2i above.

        ·      For Option B: inspect the SF-2817 to obtain the number of multiples chosen for
               Option B. Locate the employee’s age group using the age groups provided for
               Option B in the FEGLI Program Booklet. Round the employee’s annual rate of
               basic pay up to the next 1,000, divide it by 1,000, and then multiply it by the rate
               for the respective age group. Multiply this amount by the number of multiples
               chosen for Option B Life Insurance. Compare the calculated amount to the
               amount withheld for Option B Life Insurance. Report any differences resulting
               from this step and obtain management’s explanation for the differences.



8   REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                              Exhibit A – Page 6 of 15

     Results

     No exceptions were noted.

         ·     For Option C: inspect the SF-2817 to obtain the number of multiples chosen for
               Option C. Locate the employee’s age group using the age groups provided for
               Option C in the FEGLI Program Booklet. Multiply the rate for the age group by
               the number of multiples chosen for Option C Life Insurance. Compare the
               calculated amount to the amount withheld for Option C Life Insurance. Report
               any differences resulting from this step and obtain management’s explanation for
               the differences.

     Results

     No exceptions were noted.

  3. Randomly select a total of 10 employees (from each Department) who have no health
     benefits withholdings from the payroll information corresponding to the three RITS
     submissions selected above and perform the following for each employee selected.

     a. Obtain SF-2809s covering the PPs in the RITS submissions chosen, either in
        electronic or hard copy format, from the selected employee’s OPF or, if applicable,
        obtain a report (via the agency personnel office) from the agency’s automated system
        that allows participants to change benefits, (e.g., Employee Express), for any health
        benefit transactions in that system for the individuals selected. Hard copies can be
        originals or certified copies. Inspect the documentation (that is, SF-2809 or the
        agency’s system-generated report) to identify whether health benefits coverage was
        not elected. This can be identified in the following ways:

         ·     Absence of an SF-2809 in the OPF and no election of coverage made through the
               agency’s automated system that allows participants to change benefits (e.g.,
               Employee Express); or

         ·     an SF-2809 in the OPF with Section E checked (indicating cancellation of
               coverage) and no later election of coverage through the agency’s automated
               system that allows participants to change benefits (e.g., Employee Express); or

         ·     cancellation of coverage through the agency’s automated system that allows
               participants to change benefits (e.g., Employee Express) and no later election
               coverage with an SF-2809.

     b. Compare the result in step 3.a. to the RITS submissions. Report any differences
        resulting from this step and obtain management’s explanation for the differences.
                                                                     REPORT 11401-0008-11          9
Exhibit A: Procedures Performed and Results
                                                                            Exhibit A – Page 7 of 15

        Results

        Personnel officers could not locate four of the SF-2809 forms in the employees’ OPF
        supporting cancellations (one each at the Agency for International Development and the
        Department of Labor, and two from the Department of Homeland Security).
        Additionally, for one employee at the Department of Homeland Security, we noted that
        health insurance had been elected; however, the payroll system showed coverage was
        cancelled. As a result, no health deductions were made for the PPs under review.
        Department of Homeland Security personnel confirmed they did not have documentation
        supporting the cancellation but did not provide an explanation.

     4. Randomly select a total of 10 employees (from each Department) who have no life
        insurance withholdings from the payroll information corresponding to the three RITS
        submissions selected above and perform the following for each employee selected.

        a. Obtain the SF-2817s covering the PPs in the RITS submissions chosen, either in
           electronic or hard copy format, from the selected employee’s OPF. Hard copies can
           be originals or certified copies. Inspect the SF-2817 to identify that the employee
           waived or cancelled Basic Life Insurance coverage.

        b. Compare the results in step 4.a. to the RITS submissions. Report any differences
           resulting from this step and obtain management’s explanation for the differences.

        Results

        Personnel officers could not locate two of the SF-2817 forms (one each at the Agency for
        International Development and the Department of Housing and Urban Development).

        No exceptions were noted for the forms provided.

     5. Calculate the headcount reflected on the September 2013 and March 2014 Semiannual
        Headcount Report selected, as follows.

        a. Obtain existing payroll information (from step 1.a.) supporting each Supplemental
           Semiannual Headcount Report. If existing payroll data are not available, obtain a
           payroll system query that summarized detailed payroll data supporting each
           Supplemental Semiannual Headcount Report, as follows:

            ·     Benefit Category (see Supplemental Semiannual Headcount Report),

            ·     dollar amount of withholdings and contributions,



10      REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 8 of 15

       ·      number enrolled (deductions made/no deductions),

       ·      central personnel data file code, and

       ·      aggregate base salary.

    b. Recalculate the headcount reflected on each Supplemental Semiannual Headcount
       Report. If an electronic file is not available, a suggested method of recalculating the
       headcount is as follows: (1) estimate the number of employees per payroll register
       page by counting the employees listed on several pages; (2) count the number of
       pages in the payroll register; and (3) multiply the number of employees per page by
       the number of pages, or count (using a computer audit routine) the number of
       employees on the payroll data file for the period.

    c. Compare the payroll information obtained in step 5.a. and the calculated headcount
       from step 5.b. to the information shown on each respective Semiannual Headcount
       Report.

    d. Report any differences (i.e., gross rather than net) greater than 2 percent between the
       headcount reporting on each respective agency Semiannual Headcount Report and
       payroll information from step 5.a. and the calculated headcount from step 5.b. Obtain
       a management official name, telephone number, an email address, and an explanation
       for the differences.

    Results

    Our estimate of total employees (and/or annuitants) differed by more than 2 percent from
    that reported on the Supplemental Semiannual Headcount Report (OPM 1523) for the
    Department of the Treasury for PP 3, 2014. NFC stated that since the dollar amounts
    reported on the OPM Form 1523 are correct, it will perform further research and establish
    an action plan to determine whether the “Total Employees (and Annuitants) on Payroll”
    headcount should include additional records, and if so, it plans to have the headcount
    corrected by the March 2015 Form 1523 submission date.

    Similar to prior years, our estimated headcounts for military deposits and for salary
    offsets often differed by more than 2 percent from those reported by NFC on the
    Supplemental Semiannual Headcount Report. NFC stated that while total salary offset
    and military deposit dollars are correct, and the headcounts are only memo entries on the
    OPM Form 1523 and are not included in the total retirement headcount, it will perform
    further research to determine whether the criteria for reporting the headcounts are
    accurate. NFC also stated that these headcounts have very specialized criteria, and that it
    will need to further analyze them. Last year NFC established project 524267 to research
    and make required programming changes that would eliminate these differences. This

                                                                 REPORT 11401-0008-11        11
Exhibit A: Procedures Performed and Results
                                                                               Exhibit A – Page 9 of 15

        year NFC indicated that the programming changes made last year were to address overall
        headcount issues, and until NFC looks at these specifically, it will not know if these are
        legitimate scenarios or new items that the programming changes from last year were not
        designed to address.

     Also, similar to previous years, “payers of full (FEHB) premiums” are occasionally
     understated because they exclude those who for more than 365 days of nonpay status are
     “absent uniformed service when not in support of a military contingency operation.” NFC
     indicated that since the instructions for OPM Form 1523, line B2, item D include specifically
     “temporary employees, former spouses, and individuals authorized under the TCC provision”
     and nothing else, it interpreted the instructions exactly as stated, and as such, does not view
     the omission of employees on military furlough from NFC’s 1523, line B2, as an error. NFC
     further stated that it will communicate with OPM on this issue and if required by OPM, it
     will include this change, along with others that are needed, by the March 2015 Form 1523
     submission.

     We again noted that occasionally headcounts for FEGLI reported in the no deduction column
     of OPM Form 1523 differed from our estimates by more than 2 percent due to one or more of
     the following:

        ·   Reporting total records instead of corresponding employees.
        ·   Distinguishing those with and without deductions for FEGLI Option A, B, and/or C
            by the existence/absence of deductions for FEGLI basic.
        ·   An age band discrepancy.

     NFC indicated that the project 524267 programming changes made last year were to address
     overall headcount issues and that further analyses will be performed to address any issues
     that the programming changes from last year were not designed to address. NFC further
     indicated that all headcount issues are planned to be corrected by the March 2015 Form 1523
     submission date.

     In addition, similar to last year, the headcounts NFC reported on Form 1523 for those
     “enrolled with no deductions made for retirement” include records for “unpaid employees
     with no FEHB collections.” In contrast, these records are excluded from other headcounts,
     similar to those enrolled in FEGLI with no deductions and total employees. These records
     should either be (1) included only in retirement headcounts - if the inconsistency is valid,
     (2) included in retirement and other headcounts, or (3) excluded from all headcounts.




12     REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                                         Exhibit A – Page 10 of 15

    Also similar to last year, we determined many of these “unpaid employees with no FEHB
    collections” records are for former employees; specifically, those who separated before the
    current period, but whose separations are recorded after the current period.2 Headcount
    overstatements caused by including these former employees would be eliminated if all
    records of “unpaid employees with no FEHB collections” were excluded. In contrast, if all
    are included, overstatements caused by counting records of former employees would be
    mitigated only by reducing delays in processing separations.

    Also similar to prior years, we determined retirement headcounts in the no deduction column
    of Section C of Form 1523 sometimes seemed slightly overstated due to how NFC sorts and
    summarizes records for individuals with multiple records with different types and/or
    department codes. NFC again indicated that the programming changes made last year were
    to address overall headcount issues and stated it will perform further analyses to address any
    issues that the programming changes from last year were not designed to address. NFC
    stated that it plans to have all headcount issues corrected by the March 2015 Form 1523
    submission date.

    6. Calculate employer and employee contributions for retirement, health benefits, and life
       insurance as follows:

        a. Calculate retirement withholdings and contributions for the three PPs selected in step
           1.a. as follows:

                i.    Multiply the CSRS and FERS payroll base by the withholding and employer
                      contribution rates required by law.

               ii.    Compare the calculated totals from step 6.a.i. to the related amounts shown on
                      the RITS submissions. Report any differences (i.e., gross rather than net)
                      between the calculated amounts and the amounts reported on the RITS
                      submissions that are greater than 5 percent of the amounts on the RITS
                      submission, and obtain management’s explanation for the differences.

    Results

    Similar to prior years we again identified instances in which our calculation of military
    deposit dollar subtotals differed by more than 5 percent from the corresponding CSRS and
    FERS subtotals reported on the SF-28123 submitted by NFC. NFC personnel stated that as

2
  Beginning with the 1523 forms for PP 16, 2013, NFC started excluding records of those that separated before the
current period whose separations were recorded in the current period (project 524267). This modification reduces
retirement headcounts in the no deduction column of Section C of Form 1523 relative to those reported for previous
PPs. For obvious reasons, this modification does not enable NFC to exclude former employees whose separations
are recorded after the current period.
3
  SF-2812 is used to submit withholding and contribution information to OPM when an agency payroll provider is
unable to transmit via RITS.
                                                                              REPORT 11401-0008-11            13
Exhibit A: Procedures Performed and Results
                                                                         Exhibit A – Page 11 of 15

     noted in previous years, misallocations between FERS and CSRS may occur if errors
     were made when payments were processed manually; however, those errors are identified
     and corrected in subsequent PPs.

     b. Calculate employee withholdings and employer contributions for health benefits for
        the three PPs selected in step 1.a., as follows:

           i.   Multiply the number of employees enrolled in each health benefits plan and
                plan option by the employee withholdings and employer contributions for the
                plan and option.

          ii.   Sum the totals in step 6.b.i. and compare the results with the health benefit
                withholding and contribution amounts shown on the RITS submissions.
                Report any differences (i.e., gross rather than net) between the calculated
                amounts and the amounts reported on the RITS submissions that are greater
                than 5 percent of the amounts on the RITS submission, and obtain
                management’s explanation for the differences.

     Results

     There were no differences greater than 5 percent.

     c. Calculate the basic life insurance employee withholdings and employer contributions
        for the three PPs selected in step 1.a., as follows:

           i.   Obtain a payroll system query from Agency Payroll Providers personnel to
                obtain the total number of employees with Basic Life Insurance coverage and
                the aggregate annual basic pay for all employees with Basic Life Insurance.

          ii.   For employee withholdings: add the product of 2,500 times the number of
                employees with Basic Life Insurance coverage from step 6.c.i. above to the
                aggregate annual basic pay for all employees with Basic Life Insurance from
                step 6.c.i. above to calculate the estimated total Basic Life Insurance
                coverage. Divide this calculated total by 1,000 and multiply it by
                the withholding rate required by law. The Life Insurance withholding rates are
                in the FEGLI Program Booklet on OPM’s website.

         iii.   Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance
                coverage reported on the RITS submission. Report any difference (i.e., gross
                rather than net) between the estimate and the amount of withholdings reported
                on the RITS submission greater than five percent of the amounts on the RITS
                submission, and obtain management’s explanation for the difference.


14   REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                         Exhibit A – Page 12 of 15

        iv.    For agency contributions: divide the results of step 6.c.ii. by two—this
               approximates agency contributions, which are one-half of employee
               withholdings. Compare this result to the amount reported on the RITS
               submission. Report any differences (i.e., gross rather than net) between the
               estimated amount and the actual amount reported on the RITS submission that
               are greater than 5 percent of the amounts on the RITS submission, and obtain
               management’s explanation for the differences.

    Results

    There were no differences greater than 5 percent.

    d. Calculate the Option A, Option B, and Option C Life Insurance coverage
       withholdings for the three PPs selected by using the detail payroll reports used to
       reconcile the RITS reports in Step 1. In addition to the information used for step 1,
       the reports should include the employee’s date of birth, annual rate of basic pay, and
       number of multiples selected for Option B and C. Note: while similar to step 2.j., the
       calculation at this step is for the entire amount reported on the RITS submissions for
       the three PPs selected, as opposed to the sample of 25 employees in step 2.j.

          i.   Multiply the number of employees in each age group by the appropriate rate
               for Option A in accordance with the rates for age groups provided in the
               FEGLI Program Booklet.

         ii.   Compare the result in step 6.d.i. to the amounts for Option A reported on the
               RITS submissions. Report any differences (i.e., gross rather than net) greater
               than 2 percent of the amounts on the RITS submission, and obtain
               management’s explanation for the differences.

    Results

    There were no differences greater than 2 percent.

        iii.   Segregate the reports for Option B and Option C insurance into the age groups
               shown in the FEGLI Program Booklet. For Option B, round the employee’s
               annual rate of basic pay up to the next 1,000, then divide it by 1,000, and then
               multiply this amount by the rate for the age group by then multiplying this by
               the number of multiples:

               (Annual rate of basic pay (rounded up)/1,000*rate*multiples).

               For Option C, multiply the rate for the age group by the number of multiples
               chosen for each employee.

                                                               REPORT 11401-0008-11          15
Exhibit A: Procedures Performed and Results
                                                                               Exhibit A – Page 13 of 15

             iv.   Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
                   respectively, reported on the RITS submissions. Report any differences (i.e.,
                   gross rather than net) greater than 2 percent of the amounts on the RITS
                   submission for Option B or Option C, and obtain management’s explanation
                   for the differences.

        Results

        There were no differences greater than 2 percent.

     7. Compare the list of field offices/duty stations to the list of local Combined Federal
        Campaign (CFC) campaigns obtained from OPM’s Office of CFC Operations (OCFCO).
        Determine in which campaign each field office/duty station is located. (Note: it is
        possible for a field office/duty station to be in a location with no local CFC campaign.)

        Report as a finding the following: all instances in which a Federal agency has a CFC
        deduction for an employee whose official duty station is in an area with no local CFC
        campaign. A chart listing the Federal agency, the duty station code, and the campaign
        receiving the funds should be included. Obtain management’s explanation for the
        differences and a corrective action plan.

        Results

        We analyzed 62,234 records of employees with CFC deductions reported by NFC for
        PP 3, 2014. Of these employees, 60,798 had the same duty station code in PP 16, 2013
        and PP 26, 2013, which roughly coincide, respectively, with the beginning and end of the
        2013 CFC solicitation period. Of these, we identified 27 instances in which a Federal
        agency had a CFC deduction for an employee whose official duty station was in an area
        with no corresponding CFC. See Exhibit B for a chart listing the Federal agency, the
        duty station code, and the campaign receiving the funds, as well as NFC’s management
        response.

     8. Compare a list of accounting codes to the identified campaigns for each field office/duty
        station.

        a. Determine the accounting code for each field office/duty station.

        b. Determine if the name of the campaign, Principal Combined Fund
           Organization (PCFO), address of the PCFO in the agency payroll provider’s
           system agree with the information for that field office/duty station on the list of
           local CFC campaigns obtained from OPM’s OCFCO.



16      REPORT 11401-0008-11
Exhibit A: Procedures Performed and Results
                                                                          Exhibit A – Page 14 of 15

     Report as a finding the following: all instances in which the name of the campaign,
     PCFO, or address of the PCFO on the list of accounting codes from the Federal Payroll
     Office does not agree to the information on the list of all local CFC campaigns obtained
     from OPM’s OCFCO. A chart detailing the differences should be included. Obtain
     management’s explanation for the differences and a corrective action plan.

     Results

     We identified differences between PCFO names or addresses in the NFC system and
     those in the list of local CFC campaigns provided by OPM. See Exhibit C for a chart
     detailing the differences and NFC’s management response.

  9. Sort the report of all employees with CFC deductions by official duty station.

     a. Compare the official duty stations to the campaigns identified for those locations.

     b. Compare the accounting codes for each employee with CFC deductions to the
        accounting code identified for that employee’s official duty station. Determine if this
        agrees to the accounting code identified for that field office/duty station.

     Report as a finding the following: all instances in which the accounting code for an
     employee with CFC deductions does not agree with the accounting code for that
     employee’s official duty station. A chart listing the Federal agency, the duty station
     code, the campaign used, and the correct campaign should be included. Obtain
     management’s explanation for the differences and corrective action plan.

     Results

     Of the 62,234 employees with CFC deductions reported by NFC for PP 3, 2014,
     60,798 had the same duty station code in PP16, 2013 and PP 26, 2013 that roughly
     coincide, respectively, with the beginning and end of the Fall 2013 CFC solicitation
     period. We identified 1,577 instances where NFC’s CFC code for a deduction was not
     consistent with OPM’s CFC code for the employee’s duty station. See Exhibit D for a
     chart detailing the differences and NFC’s management response.

  10. From the list of accounting codes that do not agree with the field office/duty station,
      select a judgmental sample of two pledges per Federal agency and request the hard copy
      pledge form or electronic copy of the pledge form from the agency.

               ·   Determine if the pledge form used was for the correct campaign based on the
                   official duty station.



                                                                 REPORT 11401-0008-11          17
Exhibit A: Procedures Performed and Results
                                                                                         Exhibit A – Page 15 of 15

        Report as a finding the following: all instances in which the incorrect pledge form was
        used by the employee. A chart listing the Federal agency, the correct campaign and the
        campaign used should be included.

        Results

        We requested 16 CFC pledge forms from 8 agencies. 4 Agencies were unable to provide
                                                                       0F




        four of the requested pledge forms, one each from the Departments of Justice,
        Commerce, Homeland Security, and the Treasury. Of the 12 pledge forms received,
        10 were for the incorrect CFC campaign. See Exhibit E for a chart listing the Federal
        agency, the correct campaign, and the campaign used.




4
  Agency for International Development did not have any CFC codes that did not agree with the field office duty
station; all other departments tested had at least two.


18      REPORT 11401-0008-11
Exhibit B: Combined Federal Campaign (CFC) Deductions for
Employees With No Local CFC Campaign
                                                                                         Exhibit B – Page 1 of 2

This chart lists instances in which a Federal agency has a CFC deduction for an employee whose
official duty station is in an area with no CFC campaign. OPM data show CFC code of “N/A”
for each of the duty stations listed below. This chart has separate columns for duty station code,
the CFC code for the campaign receiving the funds, and number of exceptions per Federal
agency.


                                                                       DEPARTMENT

                                                                                                             Farm
                                                                                                            Service
Duty Station       CFC Per the National     Agriculture      Commerce         Justice      Homeland         Agency
                     Finance Center                                                         Security
                                                                                                            County
                                                                                                            Offices5

081500073                   0141                  1
264410021                   0452                                                  1
281760101                   0500                  1
401110149                   0712                                                                                   1
401510009                   0712                                                  1
421710105                   0990                                   1
426970065                   0754                  1
480820271                   0606                                                                   1
483570255                   0852                                                                   6
485260163                   0852                                                                   6
485280389                   0606                                                                   6
487090463                   0249                                                                   1
     Totals                                       3                1              2                20              1
Grand Total                                                                      27



5
    Farm Service Agency County Office is reported separately from the Department of Agriculture.

                                                                               REPORT 11401-0008-11            19
Exhibit B: CFC Deductions for Employees With No Local CFC
Campaign
                                                                          Exhibit B – Page 2 of 2

NFC Response

As noted in prior years, the CFC personnel for the individual campaign areas are responsible for
the solicitation, distribution, and collection of the CFC pledge forms for their campaign areas,
and the agencies’ human resources management personnel are responsible for processing the
CFC allotments for their own employees. NFC did not process the CFC allotments for the
27 employees OIG identified as having a duty station in an area with no local CFC
campaign. Since the CFC is a once-a-year activity that may include employees both new and
unfamiliar to the process, the errors were most likely caused by inexperienced personnel
accepting pledge forms from employees in duty stations with no corresponding CFCs.




20     REPORT 11401-0008-11
Exhibit C: Name, Principal Combined Fund Organization (PCFO),
and Address Differences
                                                                           Exhibit C – Page 1 of 2

The table below shows the differences identified between the information in NFC’s system and
OPM’s CFC campaign information.

                    CFC

                                 CODE

     NAME (Per OPM)          OPM      NFC       PCFO             OPM                    NFC

   CFC of New York City      0626    364170     Name          EarthShare          UNITED WAY OF
                                                                                  NEW YORK CITY

   Pacific Northwest CFC     0728    411650   Type of ac           S                      C

   Greater Texarkana Area    0854    486850   Type of ac           C
            CFC

     King County CFC         0923    531960      City             Kent               SEATTLE

  Central and Northern New   0638    366450     Routing       021300077              022000046
          York CFC

                                               Account

                                                 Street     200 Washington        P.O. BOX 2129
                                                           Street, Suite 402 A

                                                 City         Watertown              SYRACUS

                                                  Zip         13601-3307                13220




                                                                 REPORT 11401-0008-11            21
Exhibit C: Name, Principal Combined Fund Organization (PCFO),
and Address Differences
                                                                           Exhibit C – Page 2 of 2
NFC Response

NAME (Per OPM)             NFC Response                                    NFC Action

CFC of New York City—      The Central Receipt Point (CRP) Org was not     NFC will update the
OPM #0626                  highlighted to indicate a change was required   CRP Organization in
                           on OPM’s 2013 CFC Disbursements Master          Table Management
                           List of Updates received on 12/12/13.           (TMGT) table 006
                                                                           Name Address 2 field
                                                                           to “Earth Share” per
                                                                           OPM spreadsheet
                                                                           received 12/12/13.

Pacific Northwest CFC—     NFC’s system is correct; account type should    No action required by
OPM #0728                  be “C.” On 2/7/2014, NFC’s Certification &      NFC.
                           Disbursements Section notified OPM that
                           funds were being returned after OPM notified
                           NFC to change account type from C to S.
                           OPM personnel researched and advised NFC
                           to change account type back to C, and OPM
                           would provide a corrected spreadsheet with
                           the March 2014 updates correctly listing the
                           account type as C. On 2/14/2014, NFC made
                           the necessary change.

Greater Texarkana Area     No account type is indicated in TMGT table      NFC will update
CFC – OPM #0854            006. The last update made to CFC 0854           TMGT table 006 to
                           (NFC#48-6850) was 12/29/2009. Disbursed         reflect “C” in the type
                           funds to date have been deposited to the        account field.
                           correct account.

King County CFC – OPM      The CRP City was not highlighted to indicate    NFC will update the
#0923                      a change was required on OPM’s 2013 CFC         CRP City in TMGT
                           Disbursements Master List of Updates            table 006 to reflect
                           received on 12/12/13.                           “Kent” per OPM
                                                                           spreadsheet received
                                                                           12/12/13.

Central and Northern New   NFC’s system is correct. On 2/28/2014, NFC      No action required by
York CFC – OPM #0638       updated TMGT table 006 using OPM’s 2013         NFC.
                           CFC Disbursements Updates spreadsheet for
                           March, 2014, received by NFC on 2/27/2014.



22    REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                                  Exhibit D – Page 1 of 19

The chart below lists the correct campaign, the duty station code, the campaign used, and the number per
Federal agency.

 OPM’s        Duty       NFC’s
                         CFC
                                                      Department Code and Number
  CFC        Station
                                  AG    CM     DJ    DL    FD     FR    HS    HU     SB    TR      OTHER
 0002      010330073     0005     1
           010350073     0211                        1
           010350117     0990           1
 0004      011730089     0002                  1
                         0990                  2
 0005      012130101     0990     1            1
           013050125     0002                  1
 0051      040130003     0990                                           1
           040170005     0052                                           2
           040231005     0606     1
           040297021     0052     17
           040431003     0990                                           1
           040530019     0052                  1
                         0990                                           3
           040620027     0105                                           1
 0052      040370013     0106                                     1
                         0560                                     1
                         0990                  1                  1
           040490013     0990           1
 0072      050860045     0249           1
           051360123     0809                  1
 0095      061370019     0116                                                              1
 0096      060120037     0990           1
           061410059     0990           1
           061430037     0990                  2
           061440037     0990           1
           061782059     0990           1
           061786059     0990                                           2
           061970037     0839                  1
                         0923                        1
                         0990           1                               1
           061980037     0427                                                              1
                         0560                                                              1
                         0990                                           2     1            2
           063070065     0105                                           1
                         0990           1
           063250059     0105                                           18
           063420059     0095                                                 1


                                                                        REPORT 11401-0008-11             23
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 2 of 19

OPM’s       Duty     NFC’s
                     CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
                     0106                              2
         063851065   0105                                   2
         064025037   0990          1
         069990037   0249          1
0105     060410065   0051                                   40
                     0990                                   2
         060560073   0106                              1
         061200073   0990          1
         062650065   0096                                   1
         063260073   0117          1
                     0249          1
                     0923          1
                     0990          1    2                   1
0106     060010001   0897                                   1
         060050049   0870     1
         060330095   0990                    1
         060340001   0751     1
         060980113   0728     1
         061300067   0249          1
         062140081   0249          1
         062480001   0809                                                     1
                     0990                                   1
         062840001   0249          1
         063150067   0839               1
                     0990     1                                        2
         063290075   0140               4
                     0141                    1
                     0626                                   1
                     0990          1    3    1    1         1                 4     1
         063340085   0990                                                     1
         063490097   0249          1
0115     060538111   0096                                                     1
         063460083   0096               1
         063860111   0096                                                     1
         064027111   0096               1
0117     063450087   0105          1
0140     080430041   0141                    1
         082050101   0141     1
0141     080200013   0990          2




24     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                    Exhibit D – Page 3 of 19

OPM’s     Duty      NFC’s
                    CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
        080345005   0990                                  1
        080600031   0249                                                          1
                    0831                                                    1
                    0839                                  1
                    0852                                       1
                    0990         7         1              4
        080860069   0870    1
                    0990    1
        081435059   0140    1
                    0372    1
                    0990                   1              1                       1
0185    121510031   0189                                  2
                    0990         1                        1    1            2
        122350019   0990         1
        122940073   0990              1
0189    120290099   0990         1
        121080111   0990                                                          1
        121440086   0990         1
        122010086   0096                                  1
                    0192              1                   1
                    0249         1
                    0626                                  1
                    0990              1                   1                 1
        122083011   0191         1
                    0990                                  7
        122260011   0249         1
        122300093   0990    1
0192    120810127   0185    1
        121483009   0249         1
        121840117   0990         1
        121895095   0197              3
        122190127   0189         1
        122250095   0990         1
        122360095   0189                                  1
                    0943    1
                    0990    1    1                        2
        123270095   0990         1
0193    120457071   0990         1
        121070071   0197              1
0197    122730103   0990         2



                                                          REPORT 11401-0008-11           25
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 4 of 19

OPM’s       Duty     NFC’s
                     CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
         122806103   0192               1
         122950057   0189                                   1          1
                     0990          1    1                   1                 2
         123173101   0990          1
0210     135460275   0211                                   4
0211     130270059   0990     1
         130280089   0990     1         1                   1
         130280121   0990     2    5                   1    1    2            3
         131060089   0809                                                     1
                     0990                                                     1
         131610089   0990                                   1
         133100135   0990          1
         134790121   0990                                                           1
         135070067   0374                    1
0212     130310245   0211               1
                     0218               1
                     0249          1
         450020003   0990                                                           1
0214     131280215   0211               2                   1
0218     134910051   0211                         1
                     0990                         1
0225     152400003   0728          1
                     0990          1                        2
         153002001   0249          1
         158850001   0728     1
0249     171550019   0528                                                     1
         171670031   0524                    1
                     0964     1                                               1
                     0990     3    3    3    1    1         9    2                  2
         171670043   0990          1                        2
         172440043   0964                                                     1
                     0990                                                     1
         172870031   0990          1
         173940031   0990          1
         174867043   0990                                              1
         176375043   0990          5
         177000197   0990          1
         179390197   0545     1




26     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                    Exhibit D – Page 5 of 19

OPM’s     Duty      NFC’s
                    CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR      OTHER
0257    178220167   0249                        10
                    0528    1
0259    177460201   0249         1
0283    180940165   0990         1
        181420105   0249         1
        182210097   0355                                  1
                    0990                             1
        184840167   0990         1
        185200157   0458    1
                    0990    1
0339    204000079   0524    1
0351    211315221   0355    1
0355    181480163   0283              1                   1
                    0528                                                    1
        182270019   0990         2
        184340175   0283    1
        212090111   0283                                  1
                    0990                                                    1
0371    220040079   0372                   1
        221230055   0990         1
        221250019   0372                                  2
        221560073   0809    1
0372    221070109   0374    11
        221690071   0374                                  2
                    0500                                  1
                    0990         1
0373    222130017   0372                                  2
0374    220150033   0072    2
                    0372                                  3
                    0506    1
                    0990                                  1
0391    230160011   0990                                  1
        232500009   0427         1
        235900019   0427         2
0405    100130001   0751                                  1
        100490003   0751                                  3    2
        240030003   0409    4
                    0944    2
                    0990         6
        240033003   0990                                  1



                                                          REPORT 11401-0008-11         27
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 6 of 19

OPM’s       Duty     NFC’s
                     CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
         240050510   0751          1
                     0990                    1                                4
         240358027   0990          1
         240381027   0990          1
         240401003   0990          1
         240496003   0990          1                                                4
         240515027   0990          1
         240530027   0990          2
         240543005   0990          1
         240580021   0990          3
         240673003   0990                                   1
         240730043   0409          16
                     0990          1
         241090021   0990          1
         241189005   0990          1
         241195015   0990                                                           1
         241296005   0990          1
         241380045   0990          1
         241585005   0990     1
         241640021   0990                    1
         241662027   0990          1
         241669003   0990          1
         241696013   0990          1
         512564001   0990          1
0409     240930037   0405                                                           2
0427     250120025   0249          1
                     0432                                   1
                     0571                                                     1
                     0606                                   1
                     0626                                                           1
                     0990          2                                          1
         250125021   0990                         1
         250850005   0770                                   2
         251280005   0770          9
         251465021   0990          1
0432     090630003   0427                         1
         251270013   0427                                                     1
0452     260940125   0990          1
         261210163   0990                                   1




28     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                    Exhibit D – Page 7 of 19

OPM’s     Duty      NFC’s
                    CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
        261260163   0684                                  1
                    0990         4                        2                 1
        263080147   0684                                  2
        263500099   0990         1
        264166163   0990              1
        264251125   0990         1
0453    261730049   0452              2
0458    260320017   0452              2
                    0453              1
        261430065   0452              1
0466    262160047   0990         1
        262450043   0990                                                    1
        262470053   0670    1
        263050103   0452              2
                    0454              1
0481    271900137   0672                                  1
                    0990                                                    1
        274760053   0452                                       1
                    0990                        1
        274810053   0990         1
        275335069   0672                                  1
        276330123   0990    1
        277360135   0672                                  3
        382580013   0672                                  1
0500    280230047   0189                   1
        281020047   0372                                                    1
0503    281220049   0189                   1
0520    291800019   0528                                             1
0521    296910161   0528              2
0524    202820209   0528                                       2
        203010045   0990                                                          1
        203020103   0808              1
        203080091   0990                                                    1
        203490161   0185                                  1
        204285091   0528                                                    1
        294120095   0051    1
                    0095                                                    1
                    0211                                                    1
                    0528                                       1




                                                          REPORT 11401-0008-11          29
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 8 of 19

OPM’s       Duty     NFC’s
                      CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
                     0831                                                     1
                     0839                    1
                     0990                                                     1
         294120165   0990          1
         294490095   0990     1
0528     171360117   0257     1
         290335099   0990     1
         295910189   0990     1
         296410023   0524     1
         297080510   0249          1
                     0524     1              1
                     0990     1
0540     300100111   0030     1
         300130031   0545     1
0542     301050101   0540                                   1
0543     301290069   0540     1
0545     300680029   0924     1
         300830063   0211     1
                     0543     1
0551     312830109   0552                                   1
0552     197850193   0990                         1
         310580177   0551     1
         311900053   0551                                                           1
         313240099   0524     1
0560     320120003   0096                                   20
                     0606     1
0571     330070013   0990          1                        1
         330098013   0990     1
         330100017   0990          1
         330310011   0990                                   1
         330385003   0990          1
         330430015   0990                                                     1
         360050001   0626                                                     11
                     0638               1
                     0990                                        3
         500100025   0432                                                     1
                     0626                                                           1
         500200007   0990          1




30     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                    Exhibit D – Page 9 of 19

OPM’s     Duty      NFC’s
                     CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR        OTHER
        500765007   0990                                  1
0589    340640003   0990         1
        340844023   0626                                                    1
        341081035   0990         1
        341390025   0432         6
        341520017   0990         1
        342050039   0751                   1
        342130013   0626                                                          1
                    0990                                  1
        342498027   0990                   1
        343096035   0751              4
0606    350030001   0650    1
                    0990    2
        350050015   0185                                  12
        350230029   0990                                  1
        350500023   0990                                  1
        350510028   0990                                                          2
        482190141   0845                   1
                    0990                                  4          1
        485525377   0847                                  1
                    0990                                  1
        486375229   0990                                  1
0621    360706009   0990         1
        360750029   0975                                  1
                    0990                                  1
        360830069   0626                                                          1
        362260069   0638    6
        366622055   0990         2
0626    364170005   0427                                  1
                    0990              3
        364170047   0990                                                    1
        364170061   0249         1
                    0481                                                    1
                    0642                                  1
                    0990              1    1    1    1    2                       2
        364170081   0642                                  1
                    0990         1                        1
0627    361850015   0621              1




                                                          REPORT 11401-0008-11           31
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 10 of 19

OPM’s       Duty     NFC’s
                      CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR     OTHER
0631     366220065   0638                    1
0638     362940109   0249          1
         364540075   0621                                   1
         366010067   0990                         1
         366450045   0621                                   11
0639     362995119   0990          1
         366670119   0626               1
                     0990                                   1
0642     360500103   0427          1
         360597103   0990          1
         363933103   0249          1
         365270103   0990                                   1
         366550059   0626                                                     2
0650     370170021   0655               1                   5
                     0990          1
0654     370350031   0189          1
         373250049   0990               1
0655     370110183   0990          1
         370712077   0990               1
         370800183   0990          1
         370870119   0211               2
                     0249          2
                     0990                         1         1
         372730069   0990          2
         373750183   0211               1
                     0650     1
         375120067   0990          1
         451110057   0990          1
0656     373600125   0990          1
         374090105   0249          1
         375060129   0249          1
                     0990          1
0660     374070159   0655     1
0670     380370015   0481               1
         381600093   0672     1
0672     381020017   0481     1
0682     210800117   0684                                                     1
                     0686                                                     1
         211150015   0990                                                     2
         211190117   0990                    1
         211980067   0249               1


32     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                    Exhibit D – Page 11 of 19

OPM’s     Duty      NFC’s
                     CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU    SB     TR     OTHER
        391610061   0249         1
                    0975              1
                    0990                                  1
0684    390410093   0990         1
        391680035   0682                                                    1
                    0831                                                    1
                    0990    1         1    1         1
        396320085   0990         1
        398630151   0685    1
        422640049   0621                                  1
        422769049   0621                                  3
        428850123   0748    1
0685    391800049   0481    1
                    0990    1
        392270049   0682                                                    1
        399150049   0249         1
0686    392090113   0990         1
        394610165   0682                                                    1
        398300021   0990         1
        399040027   0685    1
0712    403550109   0709                                                    1
                    0715                                                    2
                    0990              1
0715    403310101   0712                                  1
        404780143   0712                        1
0727    410459035   0728    2
0728    410480053   0924    1
0740    422822055   0990         1
0746    423500043   0740                                  1
                    0751                                  2
                    0990                                  1
        429610133   0655    1
                    0990         1
0749    420115119   0751                                  1




                                                          REPORT 11401-0008-11           33
Exhibit D: Accounting Code Differences
                                                                     Exhibit D – Page 12 of 19

OPM’s       Duty     NFC’s
                      CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU     SB    TR         OTHER
         424053119   0751               1
0751     340540009   0589     1
         340598007   0589                                   2                 2
         340696005   0589     1
         341230007   0990          1
         341270001   0589     1
         341290005   0589     1
         341833005   0990                                   3
         342081005   0589                                   4
         343380021   0589                                                     1
         343760033   0589     1
         420630037   0990          1
         420910017   0990          1
         421860079   0249          1
         422530071   0249          1
         422545091   0990          1
         424520071   0746                                   1
         425074091   0990                                                            1
         426120091   0249          1
         426540101   0141     1
                     0211                    1
                     0405                                                     1
                     0626                    1
                     0749                                   1
                     0990          18   2                        1            2
         429010029   0249          1
         429310077   0249          1
0754     423900129   0990          1
         424010021   0990               1
         424290129   0990          1
         424865053   0748     1
         426600003   0990                    1
         428880125   0249          1
         429650129   0990          1
0770     250140023   0427                                                     1
         251330007   0427                                   1
         251517001   0897          1
         440053009   0897          1
         440055003   0990                                                            1




34     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                Exhibit D – Page 13 of 19

OPM’s     Duty      NFC’s
                     CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU   SB   TR         OTHER
        440185005   0990                                  1
        440190007   0990              1
0772    450409015   0185                                  1
0773    450520079   0189                   1
        451060083   0774         4
0774    451040045   0249         1
0791    462250103   0792              1
0792    462450099   0551    1
0808    471300093   0811                                                 1
0809    471620157   0211                        1         1
                    0990                                                 1
0811    470650037   0211              1
        471200113   0506    2
                    0809    2
        471760037   0351                                                 1
0830    484140303   0832                                                 1
        484560329   0606                                  1
0831    480330453   0002                                                 1
                    0095                                                 1
                    0249         1
                    0839                        1
                    0990         1                                       1
0832    480150375   0990                                                        1
0838    482290047   0846                                  6
0839    481539439   0845                                  1
        481730085   0990              1
        481730113   0845                                  1
                    0990                        1         1
        481840121   0990                                  1
        482450439   0990                                            3
        483420113   0249         1
        484802085   0249         1
        486001113   0249         1
0845    481440041   0990    1
        481695201   0682                                                 1
        483280201   0773              1
                    0838                   1
                    0839                        1
        483580201   0990         1




                                                          REPORT 11401-0008-11         35
Exhibit D: Accounting Code Differences
                                                                   Exhibit D – Page 14 of 19

OPM’s       Duty     NFC’s
                      CFC
                                              Department Code and Number
 CFC       Station
                              AG   CM   DJ    DL   FD   FR   HS   HU   SB    TR        OTHER
         485430245   0189          1
                     0990                                    1
         486660157   0990          1
0847     482500131   0846                                    1
         483080247   0846                                    9
         483899479   0846                                    2
         487660505   0846                                    4
0852     486090029   0831                                                    1
                     0846                                    2
                     0847                                    1
                     0990               1
0854     053810091   0072                                    6
0861     484160005   0846     1
0870     080590029   0141     1
         081040077   0141     1
         081700085   0141     1
         160080043   0990     1
         160160001   0728     1
         491350057   0751                                                    1
         491590041   0051     1
         491700035   0141     1
                     0606     1
                     0990               1     1                              2
0891     510440540   0249          1
                     0900                                    2
                     0990          1
         510985015   0249          1
0896     511180650   0897                                                    1
         511720700   0990          1
0897     511760710   0896               1                                    1
                     0990                                    1
         512540810   0249          1
0898     510690047   0990                                                          2
         511020630   0990     1    6
         511393099   0990          1
         511461137   0990          1
         512010153   0990               226
         512303177   0990          1
         512307179   0990          4




36     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                Exhibit D – Page 15 of 19

OPM’s     Duty      NFC’s
                     CFC
                                           Department Code and Number
 CFC     Station
                            AG   CM   DJ   DL   FD   FR   HS   HU   SB   TR         OTHER
        512570061   0990         4
0900    512060760   0712                                            1
                    0990                                                 1
0901    510180121   0990         1
        510993019   0990         1
        512100770   0990    1
0905    510160043   0990              1
        511040187   0990         1                                              3
        511190660   0990         1
        511480139   0990         1
        512640840   0990              17                  2
0921    530760009   0925    1
        531255035   0923         1
        531730035   0923              1
0922    531850005   0990                                                        1
0923    530170033   0931                                  29
        531030033   0925    1
        531050033   0096         1
        531960033   0106                             1
                    0141                                                 1
                    0728              1
                    0925    4         1                   1
                    0931                                                 1
                    0990         4                        1                     1
0924    160630049   0870    1
        161300035   0545    1
        532110063   0990              1
0925    530800053   0249         1
        531102067   0923         1
0928    532460007   0924    6
0931    530110073   0990              1
        530150073   0923                                  1
                    0990                                  1
        530500061   0728    1
                    0990    1
        530690061   0728    1
                    0923              1
0940    540170081   0990                   1
        540480039   0754                                  1
0941    540540033   0990              1



                                                          REPORT 11401-0008-11         37
Exhibit D: Accounting Code Differences
                                                                     Exhibit D – Page 16 of 19

OPM’s       Duty     NFC’s
                      CFC
                                             Department Code and Number
 CFC       Station
                              AG   CM   DJ   DL   FD   FR   HS   HU     SB    TR         OTHER
         542843049   0944     1
0943     541660003   0990               1                                     1
0944     541840061   0990                                                     1
0957     552780025   0249          1
                     0964                                                     1
0964     552070131   0990          1
         552880073   0957     1
         553100079   0106                              1
                     0249                    1
                     0990               1                                     1
0975     RQ0450000   0189                                                     1
         RQ0480000   0185                                                     2
                     0990               1
         RQ0930000   0185                                        1
0990     110010001   0096                    1              2
                     0141                    1                   1
                     0185                                        1
                     0189                    1              1
                     0249                    1
                     0283                    1              1
                     0405     1                             1
                     0427                                   1
                     0524     2              1
                     0606                                   1
                     0626                                   2
                     0682                    1
                     0751                    1    1                           1      1
                     0770                    1
                     0839                    1              1
                     0900                    1                   2
                     0905                                   2
                     0923                              1
                     0975                                                     1
         240228033   0405               1
         240710033   0405               5
         241089033   0751                                                     1




38     REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                      Exhibit D – Page 17 of 19

OPM’s      Duty      NFC’s
                      CFC
                                                  Department Code and Number
 CFC      Station
                                AG    CM    DJ    DL   FD   FR   HS      HU     SB     TR     OTHER
        241360031   0941                    1
        241450031   0923              1
        241675031   0405                          2
        510040510   0249              5
                    0897                    1
        510100013   0211        1
                    0940                          1
                    0975        1           1
        510900600   0105                                         1
        512034059   0391                                         1
        512130107   0405                                         1
                    0905                                         35
        AA0800000   0189                                         4
        AQ6000000   0225        2     10                         2
        BD2000000   0189                                         11
        BF2500000   0189                                         6
        BF5000000   0189                    3                    13
        CA1750000   0249                                         2
        CA7000000   0621                                         11
        CA7700000   0846                                         1
                    0995                                         30
        CQ7000000   0225              1                          18
        FM5000000   0225        1
        GQ0480000   0225              1
        GQ0495000   0225        1           2
        GQ0850000   0225                                         1
        MX5300000   0606                                         1
Total     1,577     Subtotals   166   295   356   47   27   13   494     23     10     110    36




                                                             REPORT 11401-0008-11            39
Exhibit D: Accounting Code Differences
                                                                                 Exhibit D – Page 18 of 19

AG ............................... Department of Agriculture

CM .............................. Department of Commerce

DJ ................................ Department of Justice

DL ............................... Department of Labor

FD ............................... Federal Deposit Insurance Corporation

FR ................................ Consumer Financial Protection Bureau

HS ............................... Department of Homeland Security

HU ............................... Department of Housing and Urban Development

SB................................ Small Business Administration

TR ............................... Department of the Treasury




40       REPORT 11401-0008-11
Exhibit D: Accounting Code Differences
                                                                           Exhibit D – Page 19 of 19

NFC Response

Of the 1,577 differences OIG identified between the OPM CFC code based on the employees’ duty
station and the NFC CFC code used for the employees’ CFC deductions, 2 of the differences were
the result of NFC-processed CFC allotments (one for a USDA Office of Chief Financial Officer
(agency 90) employee and one for a USDA National Appeals Division (agency NA)
employee). The remaining 1,575 differences were the result of processing by the personnel offices
of various USDA and non-USDA customer agencies of NFC. Details for the two NFC-processed
allotments are provided below:

       As noted in the past 2 years, the agency NA difference involved a hearing officer, whose
       duty station is his home in Monroe, Louisiana, and his regional office is in Memphis,
       Tennessee. NA hearing officers are hired for a particular location allowing them to work
       from their homes across the United States, and they are responsible for reporting to their
       respective regional offices. According to OPM guidance, if the employee’s duty station is
       in Monroe, Louisiana, the employee should be contributing to the Fort Polk-Central
       Louisiana CFC. However, because the employee’s regional office is located in Memphis,
       Tennessee, which is included under the CFC of the MidSouth, the employee used the
       pledge form for the CFC of the MidSouth. NFC personnel correctly processed the
       employee’s CFC allotment based on the CFC pledge form provided by the agency, and the
       employee’s CFC deductions were sent to the CFC of the MidSouth.

       The agency 90 difference involved an NFC employee who works at NFC’s primary
       computing facility in Denver, Colorado, and his duty station is in Lakewood, Colorado.
       Per OPM guidance, if the employee’s duty station is in Lakewood, Colorado, the employee
       should be contributing to the Rocky Mountain CFC. The employee used the correct CFC
       form; however, NFC personnel incorrectly processed the employee’s CFC allotment using
       the Greater New Orleans Area CFC code. NFC will correct the processing error so that the
       funds will be sent to the intended CFC.

Because NFC processed CFC allotments for only agency 90 and NA employees for the
2013 campaign, NFC is responsible for only 0.1 percent of the difference identified by OIG
(2 of 1,577 differences). Other customer agencies’ personnel are responsible for processing CFC
allotments for their own employees, which represented the remaining 99.9 percent of the
difference. Since the CFC is a once-a-year process, employees unfamiliar with the process may
use the wrong form, and agency personnel unfamiliar with the process may accept and process
CFC forms from employees who are in duty stations outside of the CFC campaign areas. This
may be common for agencies that have multiple duty locations. As such, we feel the root cause is
human input/process errors, and the findings should be subjected to acceptable normal input error
rates.




                                                                  REPORT 11401-0008-11           41
Exhibit E: Incorrect Combined Federal Campaign (CFC) Pledge
Forms
                                                                             Exhibit E – Page 1 of 1

The following table lists all instances in which the incorrect CFC pledge form was used by the
employee, including the Federal agency, the correct campaign, and the campaign used.

                                              CFC

      Department           Correct Per OPM              Per Pledge Form Used by Employee

      Agriculture        0051     Arizona CFC        0052          Maricopa County CFC

      Agriculture        0051     Arizona CFC        0052          Maricopa County CFC

                                  Northern New
       Commerce          0571                        0990     CFC of the National Capital Area
                                    England

                                  Chicago Area
        Justice          0249                        0990     CFC of the National Capital Area
                                      CFC

                                 Rocky Mountain
         Labor           0141                        0990     CFC of the National Capital Area
                                      CFC

  Homeland Security      0105      So Cal CFC        0051               Arizona CFC

 Housing and Urban                Northern New
                         0571                        0990     CFC of the National Capital Area
   Development                      England

     Small Business
                         0106      CFC Norcal        0990     CFC of the National Capital Area
     Administration

     Small Business                Dallas-Fort
                         0839                        0990     CFC of the National Capital Area
     Administration                  Worth

                                  Central Texas
       Treasury          0831                        0002           Central Alabama CFC
                                      CFC




42     REPORT 11401-0008-11
Exhibit F: Statistical Plan Sampling Methodology
As noted in the Auditors’ Report, we performed procedures prescribed by OPM, solely to assist
OPM with respect to the employee withholdings and employer contributions reported by the
Department of Agriculture’s NFC. OPM sets the sampling methodology for each procedure
described in each step in Exhibit A. The sufficiency of the procedures is solely the responsibility
of the Inspector General and the Chief Financial Officer of OPM. Consequently, we make no
representation regarding the sufficiency of the procedures or the sampling design and
methodology.




                                                                    REPORT 11401-0008-11         43
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
